WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-270

Irma Rosas

v.

R.K. Kenzie Corp. et al
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Red Lobster Hospitality LLC

0 I am a member of the Bar of the Supreme Court of the United States.

0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

15A114,44,.

Signature
Date-

September 8, 2020

(Type or print) Name

Bonnie Keane DelGobbo
0 Mr.

Firm

0 Mrs.

El Miss

Baker & Hostetler LLP

Address

One North Wacker Drive, Suite 4500

City & State
Phone

[I] Ms.

Zip 60606-2841

Chicago, IL

(312) 416-8185

Email

bdelgobbo@bakerlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Irma Rosas, Brian J. Sharpe, Matthew J. Ruza, Kristen A. Jones, William Kyle Walt

RECE1vED
SEP 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

